<html>
<title> - MEMBER DAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                               MEMBER DAY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2019

                               __________

                           Serial No. 116-27
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
 
 


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov                    
                         
                         
                         
                             ______
                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-284 PDF             WASHINGTON : 2020
                         
                         
                 


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     1
    Prepared statement...........................................     1

                                Members

Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia.......................................................     2
    Prepared statement...........................................     4
Cline, Hon. Ben, a Representative in Congress from Virginia......     6
    Prepared statement...........................................     8
Malinowski, Hon. Tom, a Representative in Congress from New 
  Jersey.........................................................     9
    Prepared statement...........................................    10
Case, Hon. Ed, a Representative in Congress from Hawaii..........    11
    Prepared statement...........................................    13
Norton, Hon. Eleanor Holmes, a Delegate in Congress from District 
  of Columbia....................................................    14
    Prepared statement...........................................    16
Vela, Hon. Filemon, a Representative in Congress from Texas......    17
    Prepared statement...........................................    18
Delgado, Hon. Antonio, a Representative in Congress from New York    18
    Prepared statement...........................................    20
Fitzpatrick, Hon. Brian K., a Representative in Congress from 
  Pennsylvania...................................................    21
    Prepared statement...........................................    22
Van Drew, Hon. Jefferson, a Representative in Congress from New 
  Jersey.........................................................    22
    Prepared statement...........................................    24
Torres Small, Hon. Xochitl, a Representative in Congress from New 
  Mexico.........................................................    25
    Prepared statement...........................................    26
Westerman, Hon. Bruce, a Representative in Congress from Arkansas    27
    Prepared statement...........................................    28
Finkenauer, Hon. Abby, a Representative in Congress from Iowa....    29
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts..................................................    30
    Prepared statement...........................................    32
            Submitted Material...................................
Reschenthaler, Hon. Guy, a Representative in Congress from 
  Pennsylvania, submitted statement..............................    35


                               MEMBER DAY

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2019

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:09 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Collin C. 
Peterson [Chairman of the Committee] presiding.
    Members present: Representatives Peterson, McGovern, Vela, 
Adams, Spanberger, Hayes, Delgado, Cox, Craig, Van Drew, 
Harder, Schrier, Axne, Conaway, Thompson, Crawford, Allen, 
Marshall, Dunn, Johnson, and Baird.
    Staff present: Kellie Adesina, Anne Simmons, Matthew S. 
Schertz, Patricia Straughn, Jennifer Tiller, Dana Sandman, and 
Jennifer Yezak.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    The Chairman. This hearing of the Committee on Agriculture 
for Member day, will come to order. This is something that is 
provided for in the Rules so that Members can come and tell us 
what they think about issues affecting agriculture, issues that 
they think should be brought to our attention that will help us 
in our work in making sure that we have thriving rural 
communities and continue to have the most productive food, 
fiber, and fuel system in the world.
    As everybody knows, this Committee covers a wide range of 
jurisdictions in agriculture, rural development, and other 
issues. The House Rules say it is supposed to be limited to our 
jurisdiction, but as far as I am concerned, anything that folks 
think affects agriculture and rural America, we are happy to 
hear their advice. I don't know if we are going to answer 
questions or not.
    But anyway, we appreciate the Members being here, and look 
forward to their issues that are impacting their constituents 
and suggestions that they have for us.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    Thank you to all the Members who have joined us for today's Member 
day hearing.
    Agriculture has a strong foundation in our nation's history, and 
the House Agriculture Committee has a proud history of working together 
to advance legislation needed to ensure we continue to have thriving 
rural communities and the most productive food, fiber, and fuel system 
in the world.
    The jurisdiction of the Committee covers a wide range of topics 
related to agriculture and rural development. As Chairman, I have 
charged our Subcommittee Chairs and Ranking Members with giving these 
issues the time and attention they deserve. Jurisdiction over these 
issues often crosses over into other committees. I recognize the 
importance of working with Members outside of our Committee to find 
solutions to these issues.
    It is no secret that farmers, ranchers, and rural communities 
across the country are facing serious challenges. Rural communities 
have barriers to health care and broadband. Commodity prices have been 
on a roller coaster, and input costs are continually rising. Erratic 
weather is destroying crops; and an unpredictable trade environment 
adds another level of stress.
    I'm looking forward to hearing from the Members today on the issues 
impacting their constituents and their suggestions on how to address 
those issues.

    The Chairman. I recognize the Ranking Member.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well thank you, Mr. Chairman. I appreciate you 
doing this. I appreciate our Members, both on and off the 
Committee, taking the time to be here today, both to listen and 
to share their thoughts on a host of issues under the 
jurisdiction of this Committee.
    We are witnessing difficult conditions in farm and ranch 
country. I am grateful we have a new farm bill in place and a 
President who constantly stands up for the very Americans who 
provide our food and fiber.
    Yesterday's announcements regarding an agreement on USMCA 
is welcomed, despite its being long overdue. I appreciate the 
hard work of both President Trump and Ambassador Lighthizer, 
and look forward to the agreement's swift passage.
    Thank you for doing this today, and I yield back.
    The Chairman. I thank the gentleman. I welcome our 
colleagues. We have a couple of them here at the table.
    Before we recognize Ms. Spanberger, I would like to take 
this opportunity to thank our Chief Counsel on the Democratic 
side, Kellie Adesina, for her service. Friday is her last day 
with the Committee. She has been with us for 10 years, and she 
is moving on to bigger and better things.
    She has done a great job for us, and we will miss her. But 
we wish her all the best in her future endeavors.
    So, with that, we will recognize the gentlelady from 
Virginia, Ms. Spanberger, for 5 minutes, I guess.

STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Ms. Spanberger. Thank you very much, Mr. Chairman, Mr. 
Ranking Member, and to my fellow colleagues. I appreciate the 
opportunity to address fellow Members of the House Agriculture 
Committee. I am proud to represent the people of central 
Virginia in the U.S. House of Representatives. Our district is 
home to more than 3,000 farms, and 96 percent of those farms 
are family farms. Across our rural communities, crop and 
livestock production remains a mainstay of our way of life, and 
it binds families together across generations. These producers 
are an extremely important part of our region's economy, and 
their dedication is evident each and every day. As the saying 
goes, ``They work in acres, not hours.''
    Since coming to the House of Representatives, I have 
listened firsthand to the concerns of our rural neighbors who 
work, ``in acres''. I have heard clearly about the need to 
focus on revitalizing our rural infrastructure, and I have 
heard loud and clear the need to advance long-awaited reforms.
    As Members of Congress, and of this Committee, we have an 
opportunity to heed these calls and enact policies that can 
create an environment for farmers and rural communities to 
succeed. Today, I would like to use this opportunity to talk 
about how reliable broadband, trade, labor, and technical 
assistance complement one another to enable farmers and rural 
communities to reach their potential.
    During my conversations with constituents, whether over a 
cup of coffee or on my farm tours, I have continued to hear a 
similar refrain: The lack of high-speed broadband internet is 
not being addressed swiftly enough. Limited broadband access 
inhibits the ability of our farms and businesses to stay 
competitive in an increasingly-connected economy.
    While we have made improvements over the past few decades 
in boosting high-speed internet access across rural America, we 
haven't adequately addressed the need for new and expanded 
broadband infrastructure, including in portions of central 
Virginia. At the present moment, roughly \1/4\ of my district's 
farms still do not have reliable access to the internet.
    Today, I'd like to thank many of my colleagues on this 
Committee for joining efforts I led this year to increase 
funding for the USDA's ReConnect Program. From South Dakota to 
South Carolina, we have demonstrated that there is indeed a 
strong, bipartisan, and cross-country consensus on the top 
priority of boosting rural broadband access.
    And why is that? Well, fundamentally, we all recognize that 
the issue of broadband connectivity is an issue of equal 
opportunity. Increased access to internet means students can 
complete their homework assignments, farmers can take full 
advantage of precision ag tools, and seniors can access 
telehealth services.
    Essentially, by making sure our rural schools and 
businesses are on the same playing field as urban and suburban 
areas, high-speed internet serves as a great equalizer and 
helps strengthen our communities across rural America.
    And while we are discussing the need to work together on 
issues that can keep our farms competitive, there are few areas 
where farmers, cattlemen, poultry producers, and agribusinesses 
agree on more than on the issue of trade.
    At a time of heightened market volatility and fluctuating 
farm income levels, our ag producers need unwavering market 
access when it comes to trade with our partners in Canada and 
Mexico. Canada and Mexico are two of Virginia's largest trading 
partners, and throughout my first year in office, I have heard 
farmers describe the need to protect these critical 
relationships. We need to advance a USMCA that can protect 
these relationships, expand access to North American markets, 
and actively advance economic interests of U.S. businesses and 
workers. And I am glad that we will finally be getting this 
done.
    As House negotiators, the Administration, and U.S. Trade 
Representative Lighthizer work out the very final stages, I 
hope all Members of Congress will understand that American 
agriculture is closely watching this situation. Our 
constituents are closely watching this situation, and the work 
that we are about to undertake.
    I would also like to use this time to discuss the need for 
additional reforms to our immigration system, which directly 
impacts our country's producers. We will vote on the Farm 
Workforce Modernization Act on the floor of the House of 
Representatives. This legislation, which I helped introduce 
with a bipartisan group of colleagues, would provide necessary 
changes to our immigration system and the H-2A program as we 
look to stabilize our farm workforce. Right now, my district 
ranks first in the Commonwealth for annual greenhouse sales, 
and clearly, horticulture is a key component of our district's 
rural community and economy, and I have made a point to 
personally visit with our greenhouse operators and hear 
directly about the challenges that they face. Among their 
concerns continues to be the need for labor certainty. 
Greenhouses, like dairy farms, need year-round labor, not just 
extra hands during planting and harvest months. The Farm 
Workforce Modernization Act would enact a major reform. It 
would create a new, year-round guestworker program, and these 
changes are enthusiastically supported by my district's 
greenhouses and dairy producers. The bill is the result of 
bipartisan, months-long negotiations with a broad range of 
parties and stakeholders. It is an example of how working 
across the aisle, in good faith, can lead to actual reforms of 
our nation's broken immigration system, and can help address 
the labor needs of U.S. businesses without undercutting 
American workers.
    I thank you all for your time. I thank you for your 
attention to what is most important across our rural 
communities. And as a representative of central Virginia of 
many, many farmers and producers, it is so important that we as 
Members of this Committee continue to advocate for the needs of 
rural America, the needs of our farmers and producers, and the 
needs of our economies in these communities.
    Thank you very much, and I yield back, Mr. Chairman.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
Revitalization & Reform: Building a Long-Term Future for the Rural 
        Economy
    Good morning, and thank you for providing me with the opportunity 
to address my fellow Members of the House Agriculture Committee.

    I am proud to represent the people of Central Virginia in the U.S. 
House. Our district is home to more than 3,000 farms--and 96 percent of 
those farms are family farms. Across our rural communities, crop and 
livestock production remains a mainstay of our way of life--and it 
binds families together across generations. These producers are an 
extremely important part of our region's economy, and their dedication 
is evident each and every day--as the saying goes, ``They work in 
acres, not hours.''

    Since coming to the House of Representatives, I've listened 
firsthand to the concerns of our rural neighbors who work in acres.

    I've heard clearly about the need to focus on revitalizing our 
rural infrastructure--and I've heard loud and clear the need to advance 
long-awaited reforms. As Members of Congress and of this Committee, we 
have an opportunity to heed these calls and enact policies that can 
create an environment for farmers and rural communities to succeed. 
Today, I would like to use this opportunity to talk about how reliable 
broadband, trade, labor, and technical assistance complement one 
another to enable farmers and rural communities to reach their 
potential.
    During my conversations--whether over a cup of coffee or on my 2 
day Farm Tour, I've continued to hear a similar refrain: The lack of 
high-speed broadband internet is not being addressed swiftly enough. 
Limited broadband access inhibits the ability of our farms and 
businesses to stay competitive in an increasingly-connected economy.
    While we've made improvements over the past few decades in boosting 
high-speed internet access across rural America, we haven't adequately 
addressed the need for new and expanded broadband infrastructure--
including in portions of Central Virginia. At the present moment, 
roughly \1/4\ of my district's farms still do not have reliable access 
to the internet.

    Today, I'd like to thank many of my colleagues on this Committee 
for joining efforts I've led this year to increase funding for the 
USDA's Reconnect Program.

    From South Dakota to South Carolina, we've demonstrated that there 
is indeed a strong, bipartisan, and cross-country consensus on the top 
priority of boosting rural broadband access.

    And why is that? Well, fundamentally, we all recognize that the 
issue of broadband connectivity is an issue of equal opportunity.

    Increased access to the internet means students can complete their 
homework assignments, farmers can take full advantage of precision ag 
tools, and seniors can access telehealth services.
    Essentially, by making sure our rural schools and businesses are on 
the same playing field as urban and suburban areas, high-speed internet 
serves as a great equalizer.

    And while we're discussing the need to work together on issues that 
can keep our farms competitive, there are few areas where farmers, 
cattlemen, poultry producers, and agribusinesses agree more than on the 
issue of trade.

    At a time of heightened market volatility and fluctuating farm 
income levels, our ag producers need unwavering market access when it 
comes to trade with our partners in Canada and Mexico.

    Canada and Mexico are two of Virginia's largest trading partners, 
and throughout my first year in office, I've heard farmers describe the 
need to protect these critical trading relationships.

    We need to advance a USMCA that can protect these relationships, 
expand access to North American markets, and actively advance the 
economic interests of U.S. businesses and workers. As I've said before, 
we need to get this done.

    Just last week, I joined five of my colleagues in a bipartisan 
meeting with Vice President Pence to discuss the status of USMCA 
negotiations.

    As House negotiators, the Administration, and U.S. Trade 
Representative Lighthizer work out the final stages of this agreement, 
I hope all Members of the Committee will understand that American 
agriculture is closely watching this situation--and that includes 
family farms and producers in my district. They understand the need for 
reforms to NAFTA, and they've been patiently waiting.

    I'd also like to use this time to discuss the need for additional 
reforms to our immigration system, which directly affects our country's 
producers.

    Today, we will vote on the Farm Workforce Modernization Act on the 
floor of the House. This legislation, which I helped introduce with a 
bipartisan group of my colleagues, would provide necessary changes to 
our immigration system and the H-2A program as we look to stabilize our 
farm workforce.

    Right now, my district ranks first in the Commonwealth for annual 
greenhouse sales.

    Clearly, horticulture is a key component of our district's rural 
economy, and I've made a point to personally visit with our greenhouse 
operators and hear directly about the challenges they face.

    Among their concerns continues to be the need for labor certainty.

    Greenhouses--much like dairy farms--need year-round labor, not just 
extra hands during planting and harvest months.
    The Farm Workforce Modernization Act would enact a major reform--it 
would create a new, year-round guest worker program. These changes are 
enthusiastically supported by my district's greenhouses and dairy 
producers.

    This bill is the result of bipartisan, months-long negotiations 
with a broad range of parties.

    It's an example of how working across the aisle--in good faith--can 
lead to actual reforms of our nation's broken immigration system and 
can help address the labor needs of U.S. businesses without 
undercutting American workers.

    In my role as the Chair of the Conservation and Forestry 
Subcommittee and as I visit with central Virginian producers, I have 
also seen the important role that technical assistance plays in terms 
of improving farmers' profitability and resilience.

    Whether the guidance comes from the Natural Resources Conservation 
Service, conservation districts, extensions, peer farmers, or others, 
this engagement is invaluable and is a key reason as to why American 
agriculture excels and innovates at every turn.
    Agriculture remains Virginia's number one sector, and with improved 
infrastructure and much-needed reforms and technical assistance, we can 
plant the seeds to ensure its long-term success in that position.

    By making investments in rural infrastructure and providing 
technical assistance to farmers, our rural areas can support family 
farms, recruit new workers, and innovate for the future.

    And by protecting the existing workforce and expanding existing 
trade relationships, we can give farm workers and businesses the 
certainty they need.
    Thank you.

    The Chairman. I thank the gentlelady.
    I would like to warn the folks that I am going to recognize 
people as they come in, and so Mr. Malinowski and Mr. Case, you 
kind of came in together. I think he was ahead of you in coming 
in the door. We next recognize the gentleman from Virginia, Mr. 
Cline, for 5 minutes.

STATEMENT OF HON. BEN CLINE, A REPRESENTATIVE IN CONGRESS FROM 
                            VIRGINIA

    Mr. Cline. Thank you, Mr. Chairman, Ranking Member Conaway, 
Members of the Committee. I appreciate the opportunity to 
testify today as the Agriculture Committee continues its work 
to ensure the success of rural America and our nation's 
farmers.
    Agriculture is by far the largest industry in the district 
that I represent in Virginia, the 6th Congressional District, 
represented by my former predecessor, former Agriculture 
Committee Chairman, Bob Goodlatte. In 2017, my district 
produced nearly $1.5 billion worth of agricultural goods which 
accounted for 37 percent of Virginia's agriculture sales alone. 
Any change in Federal policy impacting agriculture has a direct 
and dramatic effect on the families and businesses that I 
represent.
    Since being elected to Congress last year, I have made it a 
priority to work on behalf of the many farmers and 
agribusinesses in the district. Earlier this fall, I had the 
honor of hosting the distinguished Ranking Member on a farm 
tour in the district. I was able to show him firsthand the 
vibrant agricultural economy we have in Virginia and meet the 
hardworking men and women who get up every day to put food on 
our tables.
    As the Committee continues to oversee the implementation of 
the 2018 Farm Bill, I know you will work to see that the 
Department of Agriculture continues to implement this landmark 
legislation as Congress intended. A provision important to my 
constituents in the poultry industry is the National Animal 
Disease Preparedness and Response Program, which will help 
provide the tools and resources needed to prevent and respond 
to outbreaks of disease. It is paramount that the Committee 
continues to advance policies that ensure the stability and 
safety of our nation's food supply.
    Furthermore, I encourage the Committee to advance 
legislation and promote policies that reduce the many 
regulatory burdens our farmers face so that they can continue 
to run their businesses without unnecessary red tape 
interfering in their operations. With the recent repeal of the 
2015 Waters of the U.S. rule, farmers are finally seeing relief 
from overreaching regulations forced upon them by Washington, 
and as legislators, we should be cognizant of yielding future 
authority to Federal agencies.
    I have also heard from many of my constituents about the 
critical importance of reliable and affordable high-speed 
internet. The agriculture industry is heavily reliant on 
cutting-edge technology, and we must continue to invest in our 
infrastructure to ensure that rural America is able to thrive.
    Additionally, with the legalization of hemp production in 
the farm bill, farmers in Virginia have started to grow and 
explore the market potential of this new commodity. Virginia's 
fertile farmland is ideal for hemp cultivation. In 2019, nearly 
1,000 farmers registered with the Virginia Department of 
Agriculture and Consumer Services to grow more than 8,500 acres 
of hemp. I encourage this Committee to continue its work to 
ensure farmers have every opportunity to take advantage of this 
new crop and have access to crop insurance. It is vital that 
USDA implement a Federal Yield-Based Industrial Hemp Crop 
Insurance Program.
    Earlier this year, I worked alongside my colleagues to 
ensure Virginia's inclusion in an upcoming hemp crop insurance 
pilot program. Congress must ensure all of America's farmers 
are able to protect their investments with a level of certainty 
just like any other commodity grown in our great nation.
    Furthermore, as the Committee continues its oversight of 
USDA's implementation of the U.S. Domestic Hemp Production 
Program, we must ensure that the policies put in place are 
workable for farmers and do not add obstacles to the production 
of this new crop. USDA's interim final rule creates a process 
for testing hemp; however, there are valid concerns that the 
proposed requirements, along with the limited number of DEA 
registered testing facilities, could present challenges, and as 
a result, farmers may be delayed in getting their product to 
market on time. Congress should also encourage USDA to 
implement a rule that takes into account the realities farmers 
will face if they have several fields maturing at different 
times by increasing the allowed 15 day turnaround time 
currently planned for sampling.
    Finally, it is important that Congress continues to look at 
ways to advance and increase domestic and international market 
access for beef, timber, poultry, dairy, and other commodities 
so that our farmers and ranchers are financially stable for 
generations to come. Now that we are on the brink of voting on 
the USMCA, I encourage all Members to support this important 
agreement. USMCA has been one of the top priorities for the 
agriculture industry in Virginia. U.S. agriculture exports are 
expected to increase by over $2 billion annually as a result of 
this agreement, and expanding market access for producers in my 
district is critical to the long-term success of the family 
farms I represent.
    Thank you again for the opportunity to be with you today, 
and I look forward to working with this Committee as it works 
to ensure the success of our nation's farmers and address the 
needs of rural Americans.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Cline follows:]

Prepared Statement of Hon. Ben Cline, a Representative in Congress from 
                                Virginia
    Chairman Peterson and Ranking Member Conaway, thank you for the 
opportunity to testify today as the Agriculture Committee continues its 
work to ensure the success of rural America and our nation's farmers. 
Agriculture is by far the largest industry in the district that I 
represent in Virginia. In 2017, my district produced nearly $1.5 
billion worth of agricultural goods which accounted for 37 percent of 
Virginia's agriculture sales alone. Any change in Federal policy 
impacting agriculture has a direct and dramatic effect on the families 
and businesses that I represent.
    Since being elected to Congress I have made it a priority to work 
on behalf of the many farmers and agribusinesses that I represent. 
Earlier this fall, I had the honor of hosting the distinguished Ranking 
Member on a farm tour in my district. I was able to show him firsthand 
the vibrant agricultural economy we have in Virginia and meet the 
hardworking men and women who get up every day to put food on our 
tables.
    As the Committee continues to oversee the implementation of the 
2018 Farm Bill, I know you will work to see that the Department of 
Agriculture continues to implement this landmark legislation as 
Congress intended. A provision important to my constituents in the 
poultry industry is the National Animal Disease Preparedness and 
Response Program, which will help provide the tools and resources 
needed to prevent and respond to outbreaks of disease. It is paramount 
that the Committee continues to advance policies that ensure the 
stability and safety of our nation's food supply.
    Furthermore, I encourage the Committee to advance legislation that 
reduces the many regulatory burdens our farmers face so that they can 
continue to operate their businesses without unnecessary red tape 
interfering in their operations. It is also important that Congress 
continues to look at ways to advance and increase domestic and 
international market access for beef, timber, poultry, dairy and other 
commodities so that our farmers and ranchers are financially stable for 
generations to come.
    I have also heard from many of my constituents about the critical 
importance of reliable and affordable high-speed internet. The 
agriculture industry is heavily reliant on cutting edge technology and 
we must continue to invest in our infrastructure to ensure that rural 
America is able to thrive.
    Finally, with the legalization of hemp production in the farm bill, 
farmers in Virginia have started to grow and explore the market 
potential of this new commodity. Virginia's fertile farmland is ideal 
for hemp cultivation. In 2019, nearly 1,000 farmers registered with the 
Virginia Department of Agriculture and Consumer Services to grow more 
than 8,500 acres of hemp. I encourage this Committee to continue its 
work to ensure farmers have every opportunity to take advantage of this 
new crop and have access to crop insurance. It is vital that USDA 
implement a Federal Yield-Based Industrial Hemp Crop Insurance Program. 
Earlier this year, I worked alongside my colleagues to ensure 
Virginia's inclusion in an upcoming hemp crop insurance pilot program. 
Congress must ensure all of America's farmers are able to protect their 
investments with a level of certainty just like any other commodity 
grown in our great nation.
    Thank you again for the opportunity to be here today, and I look 
forward to working with this Committee as it works to ensure the 
success of our nation's farmers and address the needs of rural 
Americans.

    The Chairman. I thank the gentleman for his input, and we 
now recognize the gentleman from New Jersey, Mr. Malinowski, 
for 5 minutes.

STATEMENT OF HON. TOM MALINOWSKI, A REPRESENTATIVE IN CONGRESS 
                        FROM NEW JERSEY

    Mr. Malinowski. Thank you, Chairman Peterson and Ranking 
Member Conaway, thanks for the opportunity to testify before 
you today on behalf of my constituents in New Jersey's 7th 
District.
    There are upwards of 10,000 farm operations in New Jersey. 
We are among the nation's leading producers of blueberries, 
cranberries, peaches, squash, cucumbers, peppers, and more. We 
have a particularly dynamic and vibrant agricultural sector in 
the 7th District. Our farms sold more than $130 million worth 
of products in 2017 alone, and according to the Organic Trade 
Organization, we have more organic operations in the 7th 
District than in any other in New Jersey. We are truly lucky to 
have the farmers' markets, the vineyards, the family farms that 
we do. They define the character of much of my district and I 
am proud to represent them in Washington.
    In my almost 1 year in this job, I have had the opportunity 
to visit a number of these farmers and growers to hear directly 
from them. I want to give a shout-out to a few, to Alstede 
Farms and the Stony Hill Farm Market in Chester, New Jersey; 
Ashley's Farms in Flanders; Snowbird Farms in Long Valley; 
Clucas Farms in Califon; The Beneduce Vineyard in Snyder; 
Research and Extension Farm in Pittstown; the Copper Creek 
Landscape and Nursery in Frenchtown, New Jersey. Every one of 
these farms is different and their priorities can vary, but 
there were a few recurring themes that I heard on my visits to 
every farm in my district.
    First and foremost, on labor, as you know, there is 
considerable frustration with the H-2A program as it is 
currently administered. Too few workers and an overly 
cumbersome application process are making it harder for our 
farmers to access the experienced labor that they need. And I 
have to say, talking to farmers in my district, you really get 
the sense of the disconnect between the debate on immigration 
that we have in Washington and the reality that our 
constituents experience. If we are going to be realistic, we 
have a choice here. We can go on as we have with an unstated 
but very real policy in which we, as Americans, as consumers, 
as producers, pay people to come to this country, including to 
work on farms, and then take their kids at the border if they 
try. Or we can do what Republicans and Democrats tried to do 
with near success a few years ago and to try to craft 
legislation that is going to enforce our immigration laws, but 
to treat people here like human beings. I am happy to see that 
the bipartisan Farm Workforce Modernization Act does that. It 
hews to that principle and addresses a lot of the challenges 
that I have heard from farmers in my district, and I very much 
look forward to voting for it later today.
    Next on trade, our farmers don't want last-minute bailout 
checks from the government. They want to sell the products they 
have devoted their lives to growing. This Administration's 
habit of starting trade wars without the allies we need to win 
them, or a strategy for winning them, is putting many of 
America's farmers at risk, including the soybean growers in my 
district who have seen the China market dry up as a result of 
the President's ``shoot first, aim later'' approach.
    Finally, on climate, unpredictable and extreme weather 
events pose grave risks to farmers' livelihoods. Last year was 
particularly wet in northern New Jersey, which led to 
significant crop loss and other challenges for farmers and 
growers. We need bold action to confront climate change for a 
whole host of reasons. Protecting our farmers' harvests is one 
of them.
    I want to close briefly by highlighting the important 
farmland preservation work happening throughout my district, 
including in Hunterdon County, New Jersey, where more than 400 
farms have been preserved since 1985. More than in any other 
county in my state. These farms provide fresh produce to local 
communities; they are tourist attractions; they are an integral 
part of the history and identity of this beautiful part of the 
state that I am privileged to represent. Preservation prevents 
these farms from being lost forever, and ensures they can 
continue to contribute to our economy. Hunterdon County is 
leading the way in our state when it comes to farmland 
preservation.
    I look forward to working with Members of this Committee to 
ensure that USDA's Natural Resources Conservation Service, the 
county's Federal partner in these preservation efforts, is well 
funded into the future.
    Once again, thank you, Mr. Chairman, for the opportunity to 
testify, for all of your efforts to help our farmers. I look 
forward to working with you.
    [The prepared statement of Mr. Malinowski follows:]

Prepared Statement of Hon. Tom Malinowski, a Representative in Congress 
                            from New Jersey
    Chairman Peterson and Ranking Member Conaway, thank you for the 
opportunity to testify today on behalf of my constituents in New 
Jersey's 7th district.
    There are upwards of 10,000 farm operations in New Jersey and 
750,000 acres of productive farmland. We are among the nation's leading 
producers of blueberries, cranberries, peaches, squash, cucumbers, 
peppers, and more.
    We have a particularly dynamic and vibrant agricultural sector in 
the 7th district--our farms sold more than $130 million worth of 
products in 2017 alone. And according to the Organic Trade Association, 
we have more organic operations in the 7th district than any other 
Congressional district in the state.
    We're truly lucky to have the farmers' markets, vineyards, and 
family farms that we do--they are central to the character of our 
district and I'm proud to represent them here in Washington.
    In August, I had the chance to visit with a number of these farmers 
and growers--to hear directly from them about their successes, their 
challenges, and about how we in Washington can be most helpful.
    I was able to visit:

  <bullet> Alstede Farms and the Stony Hill Farm Market in Chester;

  <bullet> Ashley's Farms in Flanders;

  <bullet> Snowbird Farms in Long Valley;

  <bullet> Clucas Farms in Califon;

  <bullet> The Beneduce Vineyard and Snyder Research and Extension Farm 
        in Pittstown; and

  <bullet> The Copper Creek Landscape and Nursery in Frenchtown.

    Every farm is different and priorities can vary, but there were a 
few recurring themes I heard during my various visits.

  <bullet> First and foremost, on labor, as you know, there is 
        considerable frustration with the H-2A program as it's 
        currently administered. Too few workers and an overly 
        cumbersome application process are making it harder for our 
        farmers to access the experienced labor they need. I'm pleased 
        to see that the bipartisan Farm Workforce Modernization Act 
        addresses several of the challenges identified by both farm and 
        labor interests, and I look forward to voting in favor of this 
        legislation later today.

  <bullet> Next, on trade, our farmers don't want last-minute bailout 
        checks from the government to stay afloat. They want to sell 
        the products they've devoted their lives to growing. This 
        Administration's habit of starting unilateral trade wars is 
        putting America's farmers at risk, including the soybean 
        growers in my district who have seen the China market dry up as 
        a result of the President's 'shoot first, aim later' approach 
        to negotiations. We need to expand market access for our 
        farmers--the best in the world--not cut it off.

  <bullet> And finally, on climate, unpredictable and extreme weather 
        events pose grave risks to farmers' livelihoods. Last year was 
        particularly wet in northern New Jersey, which led to 
        significant crop loss and other challenges for farmers and 
        growers. We need bold action to confront climate change for a 
        whole host of reasons--protecting our farmers' harvests is one 
        of them.

    I want to close by highlighting the important farmland preservation 
work happening throughout my district, including in Hunterdon County, 
where more than 400 farms have been preserved since 1985--more than in 
any other county in the state.
    These farms provide fresh produce to local communities; they are 
popular tourist attractions for the region; and they are an integral 
part of the history and identity of this beautiful part of the state 
that I am privileged to represent.
    Preservation prevents these farms from being lost forever--replaced 
by new development--and ensures that they can continue to contribute to 
the rural economy as they have for generations.
    Hunterdon County is leading the way in the state when it comes to 
farmland preservation, and I commend them for their efforts. I look 
forward to working with Members of this Committee to ensure that USDA's 
Natural Resources Conservation Service, the county's Federal partner in 
their preservation efforts, is well-funded into the future.
    Thank you, Mr. Chairman, for the opportunity to testify today and 
for all of your efforts to empower America's farmers to succeed. And 
thank you to the farmers and growers in my district who have shown 
themselves to be remarkably resilient amid challenging circumstances.

    The Chairman. I thank the gentleman. Thank you very much 
for your statement and input.
    I now recognize the gentleman from Hawaii who used to be a 
Member of this Committee when he was here in a former service, 
and we welcome you back, Mr. Case.

 STATEMENT OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                             HAWAII

    Mr. Case. Thank you, Mr. Chairman, Ranking Member, and 
Members of the Committee.
    Yes, as a proud former Member of the House Agriculture 
Committee from 2003 to 2006, I appreciate your allowing me to 
share my thoughts on issues important to our agricultural 
community, both nationally and in my home State of Hawaii.
    It was just as true then as it is today that American 
agriculture doesn't much care about partisanship and is, in 
fact, a unifier across our nation. As you may remember from my 
prior service, one of the key agricultural issues facing my 
home State of Hawaii is invasive species and diseases. 
Invasives are a major issue throughout our country, but 
especially in Hawaii and other isolated areas where, because of 
our unique ecosystems, natural resources and agricultural 
crops, they have devastating effects requiring extraordinary 
prevention and mitigation actions.
    Hawaii is the most isolated island chain and one of the 
most ecologically diverse places in our world. Plants and 
animals that found their way to Hawaii evolved to thrive in 
this isolated ecosystem. In fact, a 2014 survey identified 
fully 9,975 endemic species in Hawaii. These unique 
circumstances have also given rise to one of our nation's most 
diverse and productive agricultural communities. With 
ecosystems ranging from desert to tropical and with a year-
round growing cycle, our crops have ranged throughout our 
history from the highest quality sugar and pineapple and cattle 
to tropical specialty crops like fruit and cut flowers in the 
highest demand worldwide.
    Yet, it is exactly because these crops, like our natural 
resources, have adapted to Hawaii's uniqueness that they are 
the most susceptible to devastation from external species 
against which they have no natural defenses. I sought to crack 
down on a lax regime to prevent and curb invasives with my 
introduction in 2005 of H.R. 3468, the Hawaii Invasive Species 
Act, modeled after New Zealand and other isolated jurisdictions 
with then, like now, the most stringent invasive species 
prevention regimes in the world.
    Since then, the consequences to Hawaii of insufficient 
invasive species prevention have worsened materially. For 
example, 195 new invasive species have been introduced to 
Hawaii since then. This accelerating negative effect on our 
environment and loss of biodiversity is, of course, a major 
concern from not just a natural resources perspective but 
agricultural. In fact, invasive species have drastically 
impacted agriculture in Hawaii, threatening some of the 
island's most valuable crops in the state's third-largest 
industry.
    As just a few examples, the coffee berry borer, which was 
discovered in Kona in 2010, now infects all of the coffee 
growing islands in Hawaii except Kaua`i. Hawaii's third most 
valuable crop, the macadamia nut, is under threat from the 
macadamia felted coccid, which substantially reduces macadamia 
nut tree yields. Increased research, eradication and quarantine 
dollars are needed to mitigate these invasive pests and prevent 
other pests and diseases like the coffee tree rust from 
entering the state.
    I especially want to thank this Committee for including the 
Macadamia Tree Health Initiative in last year's farm bill and 
for your continued support for the Coffee Plant Health 
Initiative and tropical and subtropical agricultural research. 
These critical initiatives provide research and extension 
grants and research support to crops that are vital to Hawaii's 
agriculture. I will soon introduce an updated and strengthened 
version of my Hawaii Invasive Species Prevention Act. I would 
deeply appreciate this Committee's careful consideration of my 
proposal, given the unique challenges we face in preventing and 
controlling invasives and the severe negative consequences to 
Hawaii from failing to do so.
    In addition to invasive species, I want to urge the 
Committee to continue its great work on specialty crops, 
sustainability programs, conservation programs and rural 
housing. When I previously served on the Agriculture Committee, 
most of Hawaii's unique crops were not covered by crop 
insurance, but through efforts by me and my then, and later, 
colleagues and the sustained support of this Committee, crop 
insurance now covers more than 130 crops. USDA conservation 
programs have been an essential component in helping local 
Hawaii products become more sustainable. USDA rural development 
programs have helped address Hawaii's housing crisis in our 
farming communities. These programs have proven themselves in 
Hawaii as they have elsewhere throughout our country.
    In closing, thank you very much for your leadership in 
helping our nation's agricultural producers, and for your 
consideration of my Hawaii's unique invasive species and 
agricultural and rural development needs. Mahalo.
    [The prepared statement of Mr. Case follows:]

 Prepared Statement of Hon. Ed Case, a Representative in Congress from 
                                 Hawaii
    Chairman Peterson, Ranking Member Conaway, and Members of the 
Agriculture Committee:

    As a former Member of the House Committee on Agriculture from 2003 
through 2006, I appreciate your allowing me to share my thoughts on 
issues important to our agricultural community both nationally and in 
my home state of Hawai`i. It was just as true then as it is today that 
American agriculture doesn't much care about partisanship and in fact 
is a unifier across our nation.
    As you may remember from my prior service, one of the key 
agricultural issues facing my home state of Hawai`i is invasive species 
and diseases. Invasives are a major issue throughout our country, but 
especially in Hawai`i and other isolated areas where, because of our 
unique ecosystems, natural resources and agricultural crops, they have 
devastating effect requiring extraordinary prevention and mitigation 
actions.
    Hawai`i is the most isolated island chain and one of the most 
ecologically diverse places in our world. Hawai`i is 2,282 miles from 
the continental United States, 2,952 miles from Japan and 4,772 miles 
from Washington, D.C. Plants and animals that found their way to 
Hawai`i evolved to thrive in this isolated ecosystem. A 2014 survey 
identified 9,975 endemic species in Hawai`i. These species include the 
Hawaiian scarlet honeycreeper, the `I`iwi; the flowering evergreen, the 
`ohi`a lehua; and the state bird of Hawai`i, the nene.
    Hawai`i's unique circumstances also have given rise to one of our 
nation's most diverse and productive agricultural communities. With 
ecosystems ranging from desert to tropical and with a year-round 
growing cycle, our crops have ranged throughout our history from the 
highest quality sugar and pineapple and cattle to tropical specialty 
crops like fruit and cut flowers in the highest demand worldwide.
    Yet, it is exactly because these crops like our natural resources 
have adapted to Hawai`i's uniqueness that they are the most susceptible 
to devastation from external species against which they have no natural 
defenses. I sought to crack down on a lax regime to prevent and curb 
invasives with my introduction in 2005 of H.R. 3468, the Hawai`i 
Invasive Species Prevention Act, modeled after New Zealand and other 
isolated jurisdictions with then like now the most stringent invasive 
species prevention regimes in the world.
    Since then, the consequences to Hawai`i of insufficient invasive 
species prevention have worsened materially. For example, 195 new 
invasive species have been introduced to Hawai`i. These have only added 
to Hawaii's unfortunately warranted description as the extinction 
capital of the world. Although we will never know the true number of 
species that have gone extinct in Hawai`i, in the last 200 years, 28 
bird, 72 snail, 74 insect and 97 plant species have gone extinct, and 
of the 1,274 listed endangered species of animals and plants, 502 are 
from Hawaii. The state has nearly 40% of the nation's endangered 
species. Additionally, another 15 are listed as threatened in Hawai`i.
    This accelerating negative effect on our environment and loss of 
biodiversity is of course a major concern from not just a natural 
resources perspective but agricultural. In fact, invasive species have 
drastically impacted agriculture in Hawai`i, threatening some of the 
island's most valuable crops in the state's third-largest industry.
    As just a few examples, the coffee berry borer, which was 
discovered in Kona in 2010, now infects all of the coffee growing 
islands in Hawai`i except Kaua`i. The coffee berry borer can cause 
yield losses of between 30 and 35 percent and affects the quality of 
the coffee beans, directly impacting the income of growers.
    Hawai`i's third most valuable crop, the macadamia nut, is under 
threat from the macadamia felted coccid. Macadamia Felted Coccid has 
been found in all of Hawai`i Island's prime macadamia growing regions. 
The felted coccid reduces macadamia tree output by draining nutrients 
from the tree. Invasive species coupled with increased rain led to a 22 
percent decline in the macadamia nut harvest this year compared to last 
year. Increased research, eradication and quarantine dollars are needed 
to mitigate these invasive pests and prevent other pests and diseases 
like the coffee leaf rust from entering the state. I especially want to 
thank this Committee for including the Macadamia Tree Health Initiative 
in last year's farm bill and for your continued support for the Coffee 
Plant Health Initiative and tropical and subtropical research. These 
critical initiatives provide research and extension grants and research 
support to crops that are vital to Hawai`i agriculture.
    I will soon introduce an updated and strengthened version of my 
Hawai`i Invasive Species Act. I would deeply appreciate this 
Committee's careful consideration of my proposal given the unique 
challenges we face in preventing and controlling invasives and the 
severe negative consequences to Hawai`i from failing to do so.
    In addition to invasive species, I want to urge the Committee to 
continue its great work on specialty crops, sustainability programs, 
conservation programs and rural housing. When I previously served on 
the Agriculture Committee, most of Hawai`i unique crops were not 
covered by crop insurance, but through efforts by me and my then and 
later colleagues and the sustained support of this Committee, crop 
insurance now covers more than 130 crops. USDA conservation programs 
have been an essential component in helping local Hawai`i products 
become more sustainable. USDA rural development programs have helped 
address Hawai`i's housing crisis in our farming communities. These 
programs have proven themselves in Hawai`i as they have elsewhere 
throughout our country,
    In closing, thank you for your leadership in helping our nation's 
agricultural producers and for your consideration of Hawai`i's unique 
invasive species and agricultural and rural development needs.

    The Chairman. I thank the gentleman for his input, and we 
appreciate that.
    We now welcome the gentlelady from the District of Columbia 
who is--I have a note--was one of my colleagues in our class of 
1991. There are only a few of us left. Eleanor Holmes Norton.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                   FROM DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman. You and I may be the 
only survivors from that class. I very much appreciate, 
Chairman Peterson and Ranking Member Conaway, the opportunity 
to testify this morning on H.R. 4885, the McIntire-Stennis Act. 
I call it the McIntire-Stennis District of Columbia Equality 
Act, which would amend the McIntire-Stennis Cooperative 
Forestry Act to make the District, your Nation's Capitol, 
eligible for funding. The District is treated as a state for 
Federal programs with very, very few exceptions, most of them 
simply oversights or failures to update. The exclusion of the 
District from the Act appears to have been just that, an 
oversight. As I shall explain presently, my bill would rectify 
the exclusion of the District from the Act, ensuring equitable 
treatment for the District and allowing the District to benefit 
from the funding opportunities available under the Act, 
competitively, of course.
    The Act provides U.S. states and territories with formula 
funds as well to support state-designated institutions' 
cooperative forestry research programs. The Act defines state 
to include Puerto Rico, the Virgin Islands, and Guam. The 
District's notable, but faulty, absence from the definition 
makes it ineligible for funds that would support research at 
the District's state-supported university, the University of 
the District of Columbia. UDC's College of Agriculture, Urban 
Stability, and Environmental Science complements the District's 
ongoing forestry efforts. UDC is the nation's only urban land-
grant university.
    We appreciate that Puerto Rico, Virgin Islands, and Guam 
are included under the definition of state, even though unlike 
District residents, their residents do not pay Federal income 
taxes. It would be particularly troubling if the District, 
whose residents pay the highest per capita Federal taxes in the 
United States, which support farm and other programs, continue 
to be excluded.
    It has been argued that the District should be excluded 
because of the lack of local timber production. However, the 
Act says, and here I am quoting, ``in making such 
apportionments, consideration shall be given to pertinent 
factors including'' local timber production. Including is the 
operative word there. Proximity to timber is, therefore, only 
one in a non-exclusive list of factors that is part of the 
larger analysis regarding apportionments. Excluding the 
District from the definition of state merely because it is not 
located in an area with a timber industry runs counter to the 
clear intent of the Act. While timber production can be a 
factor in determining the amount of state allocations, there is 
no reason that the District should be excluded from the Act.
    Moreover, UDC would particularly benefit from funding from 
the Act. The goal of the Act goes well beyond providing money 
to study timber production, and UDC's position as the nation's 
only urban land-grant university would make it especially well-
qualified for funding under this Act. With increased 
urbanization in the United States, it is more important than 
ever that urban areas also deal with unique issues related to 
urban forestry and maintaining native ecosystems, and UDC is 
helping lead that charge.
    For example, UDC has an Urban Gardening and Forestry 
Outreach Program that provides District residents with 
information on the benefits of the city's many trees--this is, 
above all, a tree city--and the natural resources trees 
provide. As UDC notes on its website describing this particular 
program, ``District residents are educated about tree care, 
forestry niche crops, and the invasive species that threaten 
the ecosystem.'' Moreover, this program provides education 
materials, does demonstrations and workshops, provides 
technical assistance to interested parties, and conducts site 
visits and consultations. As urban areas face increasing 
environmental stress, it is more important than ever that our 
universities study matters, such as how urban forests and trees 
can help with flood mitigation and water absorption. UDC 
already works with the District to help reintroduce native 
species into Rock Creek Park, including trees that are part of 
larger forestry restoration efforts. It is important to avoid 
stereotypes about jurisdictions that could be deprived of 
funding for which they would otherwise quality. It is 
unconscionable for UDC to be unable to get funding under the 
Act for its forestry programs simply because of its location in 
the Nation's Capitol.
    We believe, therefore, that the exclusion of the District 
must have been the result of an oversight during the original 
drafting of the Act; however, as you can imagine--and I don't 
believe I was here at the time--this exclusion has serious 
consequences for the District, rendering UDC ineligible for 
these funds. Passage of my bill would allow students and 
researchers in the Nation's Capitol to take part in this 
important forestry program.
    Again, Chairman Peterson, I appreciate your allowing me to 
testify today, and I look forward to working with you to enact 
this bill.
    [The prepared statement of Ms. Norton follows:]

    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
                   Congress from District of Columbia
    Chairman Peterson and Ranking Member Conaway, I am pleased to 
testify on H.R. 4885, the McIntire-Stennis Act District of Columbia 
Equality Act, which would amend the McIntire-Stennis Cooperative 
Forestry Act (Act) to make the District of Columbia eligible for 
funding. The District is treated as a state for Federal programs, with 
very few exceptions, most of them simply oversights or failures to 
update. The exclusion of the District from the Act appears to have been 
an oversight, as I shall explain presently. My bill would rectify the 
exclusion of the District from the Act, ensuring equitable treatment 
for the District and allowing the District to benefit from the funding 
opportunities available under the Act.
    The Act provides U.S. states and territories with formula funds to 
support state-designated institutions' cooperative forestry research 
programs. The Act defines ``state'' to include Puerto Rico, the Virgin 
Islands, and Guam. The District's notable, but faulty, absence from 
this definition makes it ineligible for funds that would support 
research at the District's state-supported university, the University 
of the District of Columbia (UDC). UDC's College of Agriculture, Urban 
Stability, and Environmental Science complements the District's ongoing 
forestry efforts. UDC is the nation's only urban land-grant university.
    We appreciate that Puerto Rico, the Virgin Islands, and Guam are 
included under the definition of ``state,'' even though, unlike 
District residents, their residents do not pay Federal income taxes. It 
would be particularly troubling if the District, whose residents pay 
the highest per capita Federal taxes, which support farm and other 
Federal programs, continued to be excluded.
    It has been argued that the District should be excluded because of 
its lack of local timber production. However, the Act says, ``[i]n 
making such apportionments, consideration shall be given to pertinent 
factors including'' local timber production. Proximity to timber is, 
therefore, only one in a non-exclusive list of factors that is part of 
the larger analysis regarding the apportionments. Excluding the 
District from the definition of ``state'' merely because it is not 
located in an area with a timber industry runs counter to the intent of 
the Act. While timber production can be a factor in determining the 
amount of state allocations, there is no reason that the District 
should be excluded from the Act.
    Moreover, UDC would particularly benefit from funding from the Act. 
The goal of the Act goes well beyond providing money to study timber 
production, and UDC's position as the nation's only urban land-grant 
university would make it especially well-qualified for funding under 
this Act. With increased urbanization in the United States, it is more 
important than ever that urban areas also deal with the unique issues 
related to urban forestry and maintaining native ecosystems, and UDC is 
helping lead the charge. For example, UDC has an Urban Gardening and 
Forestry Outreach program that provides District residents with 
information on the benefits of the city's many trees and the natural 
resources trees provide. As UDC notes on its website describing this 
particular program, ``[District] [r]esidents are educated about tree 
care, forestry niche crops and the invasive species that threaten the 
ecosystem.'' Moreover, this program provides education materials, does 
demonstrations and workshops, provides technical assistance to 
interested parties, and conducts site visits and consultations. As 
urban areas face increasing environmental stress, it is more important 
than ever that our universities study matters such as how urban forests 
and trees can help with flood mitigation and water absorption. UDC 
already works with the District to help reintroduce native species into 
Rock Creek Park, including trees that are part of larger forest 
restoration efforts. It is important to avoid stereotypes about 
jurisdictions that could be deprived of funding for which they would 
otherwise qualify. It is unconscionable that UDC cannot get funding 
under the Act for its forestry programs simply because of its location 
in the District.
    We believe, therefore, that the exclusion of the District must have 
been the result of an oversight during the original drafting of the 
Act. However, as you can imagine, this exclusion has serious 
consequences for the District, rendering UDC ineligible for these 
funds. Passage of my bill would allow students and researchers in the 
Nation's Capitol to take part in this important forestry program.
    Again, I appreciate your allowing me to testify today, and I look 
forward to working with you to enact this bill.

    The Chairman. I thank the gentlelady, and we will take it 
under advisement.
    Ms. Norton. Thank you.
    The Chairman. As I said earlier, we are recognizing people 
as they enter the room, so next, Mr. Vela from Texas, then Mr. 
Delgado would be next, Mr. Fitzpatrick, and then Mr. Van Drew.
    So the gentleman from Texas, Mr. Vela.

 STATEMENT OF HON. FILEMON VELA, A REPRESENTATIVE IN CONGRESS 
                           FROM TEXAS

    Mr. Vela. Good morning, Chairman Peterson, Ranking Member 
Conaway, and thank you for holding this hearing today.
    I am here to speak on the importance of H.R. 4482, the 
Protecting America's Food and Agriculture Act of 2019. This 
bill will provide Customs and Border Protection the 
authorization to hire agricultural specialists and technicians 
to fill the deficit that their own resource application model 
has determined is necessary to carry out inspections, as well 
as authorization to add canine teams for these inspections.
    Currently, according to CBP's resource allocation model, 
there is a deficit of 695 agricultural specialists, and it will 
authorize the hiring of up to 240 specialists a year until CBP 
meets its workforce targets. On an average day, CBP processes 
more than one million passengers and pedestrians; 358,000 
incoming international air passengers; 81,000 truck, rail, and 
seas containers; 90,000 shipments of goods approved for entry; 
and $120 million in fees, duties, and tariffs at U.S. ports-of-
entry by land, sea, and air. On these days, they seize more 
than 2,112 kilograms of drugs; 100 shipments; 4,370 prohibited 
plant materials and/or animal products; and 319 agricultural 
pests and diseases.
    Agricultural specialists and technicians are the frontline 
for preventing the entry of these illicit and invasive species. 
These pests and diseases cause an estimated $120 billion in 
economic damage to the United States, with more than \1/2\ of 
that figure accounting for damages to the agricultural sector.
    With the rising transmission of African Swine Fever across 
Asia and Eastern Europe, the protection of our domestic swine 
herds is imperative, and the expansion of our domestic 
surveillance at ports of entry is critical to protecting our 
hard-working pork producers. With estimated losses of over 300 
million pigs in China due to African Swine Fever, increasing 
detection and eradication of products contaminated with African 
Swine Fever is imperative to prevent the devastation of our 
domestic hog herds.
    I urge my colleagues to support this legislation to protect 
our domestic agricultural economy from the entrance of illegal 
agricultural products. We need to be proactive instead of 
reactive in defending our agricultural production and this bill 
is a critical first step to protecting our nation's food and 
agriculture.
    Thank you.
    [The prepared statement of Mr. Vela follows:]

 Prepared Statement of Hon. Filemon Vela, a Representative in Congress 
                               from Texas
    Good morning, Chairman Peterson and Ranking Member Conaway, and 
thank you for holding this hearing today.
    Today I stand to speak of the importance of my bill, HR 4482, the 
Protecting America's Food and Agriculture Act of 2019. This bill will 
provide CBP the authorization to hire Agricultural Specialists and 
Technicians to fill the deficit that their own Resource Application 
Model has determined is necessary to carry out inspections, as well as 
authorization to add canine teams for these inspections. Currently, 
according to CBP's Resource Allocation Model, there is a deficit of 695 
Agricultural Specialists and this bill will authorize the hiring of up 
to 240 specialists a year until CBP meets its workforce targets.
    On an average day, CBP processes more than one million passengers 
and pedestrians; 358,000 incoming international air passengers; 81,000 
truck, rail, and seas containers; 90,000 shipments of goods approved 
for entry; and $120 million in fees, duties, and tariffs at U.S. ports-
of-entr[y] by land, sea, and air. On these days, they seize more than 
2,112 kilograms of drugs; 100 shipments; 4,370 prohibited plant 
materials and/or animal products; and 319 agricultural pests and 
diseases.
    Agricultural Specialists and Technicians are the frontline for 
preventing the entry of these illicit and invasive species. These pests 
and diseases cause an estimated $120 billion in economic damage to the 
U.S., with more than \1/2\ of that figure accounting for damages to the 
agricultural sector.
    With the rising transmission of African Swine Fever across Asia and 
Eastern Europe, the protection of our domestic swine herds is 
imperative, and the expansion of our domestic surveillance at ports of 
entry is critical to protecting our hard-working pork producers. With 
estimated losses of over 300 million pigs in China due to African Swine 
Fever, increasing detection and eradication of products contaminated 
with African Swine Fever is imperative to prevent the devastation of 
our domestic hog herds.
    I urge my colleagues to support this legislation to protect our 
domestic agricultural economy from the entrance of illegal agricultural 
products. We need to be proactive instead of reactive in defending our 
agricultural production, and this bill is a critical first step to 
protecting our nation's food and agriculture.

    The Chairman. I thank the gentleman for his statement.
    Now, Mr. Delgado, the gentleman from New York, you are 
recognized for 5 minutes.

STATEMENT OF HON. ANTONIO DELGADO, A REPRESENTATIVE IN CONGRESS 
                         FROM NEW YORK

    Mr. Delgado. Thank you, Chairman Peterson and Ranking 
Member Conaway, for the opportunity to join you this morning.
    I am pleased to be here on behalf of the nearly 5,000 small 
farms and over 8,000 farm operators in my district, 96 percent 
of which are family farms. We do not have big corporate farms 
back home in upstate New York, which makes things challenging, 
given how much of our Federal policy is geared towards 
supporting the large-scale operations.
    Indeed, Agriculture Secretary Sonny Perdue has repeatedly 
opined that the demise of the small family farm is inevitable. 
I disagree. It is a choice. The choice is exactly why I sit 
with you today. This past weekend, I joined the Schoharie 
County Farm Bureau at Argus Acres farm where I met with several 
dairy farmers operating across the county. They represent 
generations of family farms. We cannot and will not choose to 
leave these folks behind when crafting Federal policy. 
Supporting our family farmers starts with pushing back against 
group think supporting economies-of-scale rather than 
economies-of-cooperation. Economies-of-cooperation ought to 
guide our work to create inclusive policy that helps every 
farmer get ahead. That means giving small family farmers the 
tools to access increased market share, supporting the next 
generation of farmers, equipping our farmers to respond to a 
changing and challenging climate, and crafting legislation that 
specifically combats monolithic agriculture policy that drowns 
out the voices of family-owned farms.
    A first step to addressing these headwinds facing small 
farmers includes giving our farmers the increased flexibility 
to reorganize their finances. To that end, I worked with 
Chairman Peterson on legislation that will help farmers through 
this challenging time for agriculture. The Family Farmer Relief 
Act lifts the eligibility cap from $3 million to $10 million 
for Chapter 12 bankruptcy filings, which allows small farmers 
the flexibility to reorganize, restructure and repay their 
debt. It passed the House and Senate earlier this year and was 
signed by the President in August. This law is not a panacea, 
but it certainly helps our farmers.
    While it is important for our farmers to have increased 
flexibility, I urge the Committee to better tailor our Federal 
policy to support family-owned farms. This includes removing 
barriers to success for the next generation of young farmers. I 
have introduced the bipartisan Young Farmer Success Act, which 
adds farmers and ranchers to the Public Service Loan 
Forgiveness Program. This legislation, which is currently 
moving as a part of the College Affordability Act, will be 
voted on by the full House soon.
    As we think about the future generations of farmers, we 
must also consider the significant risks posed by climate 
change. As farmers face unpredictable growing patterns, threats 
to long-term soil health, and more severe, extreme weather 
events, I urge the Committee to support tax credits and 
incentives for climate-friendly practices, including carbon 
sequestration.
    Additionally, as a Committee, it is our duty to acknowledge 
the significant headwinds facing dairy producers today, 
including low prices and increased market consolidation, and 
continue to fight for the interests of our small dairy farmers 
and protect their ability to stay in business.
    I am proud to support the bipartisan Whole Milk for Healthy 
Kids Act of 2019, which allows schools in the School Lunch 
Program to buy flavored and unflavored whole milk for students, 
and the DAIRY PRIDE Act which combats mislabeling nondairy 
products, are important incremental steps to bolster support 
for our small dairy farms. I will continue to push to bring 
more product from our local farmers into our public schools, 
hospitals, and other more localized institutions. As we 
consider future legislation to support our farmers and 
specifically consider the plight of small farms, the policies 
pursued by this Committee should not foster market 
consolidation, but rather, serve as a check against it.
    Our small farms are also feeling disproportionate impacts 
from the President's scattershot trade policies. The United 
States is now paying more to help our farmers deal with tariffs 
than we did to bail out the auto industry during the great 
recession, more than double.
    The Administration's own attempts to combat these tariffs 
continue to advantage big ag. For example, the Environmental 
Working Group found that in the Administration's first round of 
trade aid for farmers, more than \1/2\ of total payments went 
to the top ten percent of farmers. In other words, the largest 
and wealthiest farms in the country. Our policies must be 
tailored to address urgent needs for small family-owned farms 
during this down farm economy.
    I will close this morning by once again highlighting my 
experiences this weekend with dairy farmers in Schoharie 
County. These are the folks we must look out for, those who 
have maintained family farmland for generations. This time-
honored tradition is crucial to our upstate way of life and we 
will not allow them to just go away.
    I thank you all again for the opportunity to testify, and 
look forward to continuing to working alongside the Committee 
to support our small farmers.
    I yield back.
    [The prepared statement of Mr. Delgado follows:]

    Prepared Statement of Hon. Antonio Delgado, a Representative in 
                         Congress from New York
    Good morning. Let me start by thanking Chairman Peterson and 
Ranking Member Conaway for the opportunity to join you all this 
morning.
    I'm pleased to be here on behalf of the nearly 5,000 small farms 
and over 8,000 farm operators in my district, 96% of which are family 
farms.
    We do not have big corporate farms at home, which makes things 
challenging given how much of our Federal policy is geared towards 
supporting the large-scale operations. Indeed, Agriculture Secretary 
Sonny Perdue has repeatedly opined that the demise of the small family 
farm is inevitable. I disagree. It is a choice.
    This choice is exactly why I sit before you all today. This past 
weekend, I joined the Schoharie County Farm Bureau at Argus Acres farm 
where I met with several dairy farmers operating across the county--
they represent generations of family farmers. We cannot and will not 
``choose'' to leave these folks behind when crafting Federal policy.
    Supporting our family farmers starts with pushing back against 
group think supporting economies-of-scale rather than economies-of-
cooperation.
    Economies-of-cooperation ought to guide our work to create 
inclusive policy that helps every farmer get ahead: that means giving 
small family farmers the tools to access increased market share, 
supporting the next generation of farmers, and crafting legislation 
that specifically combats monolithic agriculture policy that drowns out 
the voices of family-owned farms.
    A first step to addressing these headwinds facing small farmers 
includes giving our farmers the increased flexibility to reorganize 
their finances.
    To that end, I worked with Chairman Peterson on legislation that 
will help farmers through this challenging time for agriculture. The 
Family Farmer Relief Act lifts the eligibility cap, from $3 million to 
$10 million, for Chapter 12 bankruptcy filings which allows small 
farmers the flexibility to reorganize, restructure and repay their 
debt. It passed the House and Senate earlier this year and was signed 
by the President in August. This law is not a panacea, but it certainly 
helps our small farmers.
    While it is important for our farmers to have increased 
flexibility--I urge the Committee to better tailor our Federal policy 
to support family owned farms. This includes removing barriers to 
success for the next generation of young farmers. I've introduced the 
bipartisan Young Farmer Success Act which adds farmers and ranchers to 
the Public Service Loan Forgiveness Program. This legislation, which is 
currently moving as a part of the College Affordability Act will be 
voted on by the full House soon.
    As we seek to address the challenges facing our farmers, we must 
acknowledge the significant headwinds facing dairy producers: including 
low prices and increased market consolidation. As a body, it is our job 
to continue to fight for the interests of our small dairy farmers and 
protecting their ability to stay in business.
    The bipartisan Whole Milk for Healthy Kids Act of 2019, which 
allows schools that participate in the School Lunch Program to buy 
flavored and unflavored whole milk for students, is an important step 
to continue to support our small dairy farmers. I will continue to push 
to bring more product from our local farmers into our public schools.
    In addition to these specific legislative proposals, combating the 
consolidating markets and the tariffs must remain our north star on 
this Committee. Right now, the Administration's own policies continue 
to advantage big ag by basing subsidies on the number of employees and 
volume of production. There's no way that small farmers can compete 
with this metrics-based mind-set.
    I will close this morning by once again highlighting my experiences 
this weekend with dairy farmers in Schoharie County. These are the 
folks we must look out for, those who pass down farmland from 
generation to generation. These time-honored traditions are crucial to 
our upstate way of life and we will not allow them to decline.
    I thank you all again for the opportunity to testify before you and 
look forward to working alongside you all to support our small farmers.

    The Chairman. I thank the gentleman for his statement.
    I now recognize the gentleman from Pennsylvania, Mr. 
Fitzpatrick.

  STATEMENT OF HON. BRIAN K. FITZPATRICK, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    Mr. Fitzpatrick. Good morning, Chairman Peterson and 
Ranking Member Conaway. Thank you for your time this morning.
    I am here today to urge the Committee to take up two very 
important bills, pieces of legislation, regarding animal 
protection. The first is H.R. 1002, the Welfare of our Friends, 
or the WOOF! Act, introduced by myself and Congressmen Crist, 
G.T. Thompson, and McGovern, which to date has garnered over 
200 cosponsors. This bipartisan bill would amend the Animal 
Welfare Act to prohibit the issuance or the renewal of a 
license to dog breeders and exhibitors until they have 
demonstrated compliance through facility inspection. This is 
common-sense legislation that will help to stop puppy mills and 
abusive dog breeders from continuing to get their licenses in a 
direct family member's, spouse's, or cohabitant's name. And it 
also ensures that those that have had licenses suspended or 
revoked in the last 10 years do not procure one.
    This legislation helps to bolster the actions that the 
Department of Agriculture is currently taking with their rule 
proposal which seeks to eliminate automatic license renewals. 
It suggests that reapplication would be necessary every 3 
years. And while I am supportive of the USDA's proposed rule, I 
believe that the WOOF! Act goes one step further in protecting 
dogs from abusive handlers by making licensing requirements 
stricter.
    Second, Mr. Chairman and Mr. Ranking Member, I would like 
to bring to the Committee's attention H.R. 2442, the Puppy 
Protection Act. This bill was introduced by myself and 
Congressmen Crist, Reschenthaler, and McGovern. It currently 
has 37 cosponsors. This bipartisan bill would amend the Animal 
Welfare Act to ban harmful practices such as cage stacking and 
wire flooring in pet areas. It requires the following: that 
dogs over 12 weeks old have room to exercise; dogs be fed at 
least twice a day and have access to clean and unfrozen water 
at all times; all dogs receive annual veterinary examinations; 
and it also includes many other common-sense measures meant to 
ensure reasonable well-being of these animals. While some of 
the provisions in the bill are in the USDA's proposed rule, the 
Puppy Protection Act provides additional standards of care to 
ensure that dogs in USDA licensed facilities are treated 
humanely.
    Mr. Chairman, Mr. Ranking Member, both of these bills have 
the strong support of the Humane Society, the ASPCA and 
numerous other animal advocacy groups. I hope that the 
Committee will consider these two important pieces of 
legislation that will help protect our friends in need of these 
protections.
    I thank the Committee for its time, and I urge the 
Committee to take up these bills.
    I yield back.
    [The prepared statement of Mr. Fitzpatrick follows:]

 Prepared Statement of Hon. Brian K. Fitzpatrick, a Representative in 
                       Congress from Pennsylvania
    Good morning, Chairman Peterson and Ranking Member Conaway, I am 
here today to urge the Committee to take up two important bills 
relating to animals.
    H.R. 1002, the Welfare of our Friends or WOOF! Act introduced by me 
Congressmen Crist, G.T. Thompson, and McGovern has garnered 195 
cosponsors.
    This bipartisan bill would amend the Animal Welfare Act to prohibit 
the issuance or renewal of a license to dog breeders and exhibitors 
until they demonstrate compliance through facility inspection.
    This common-sense bill will help to stop puppy mills and abusive 
dog breeders from continuing to get licenses in a direct family 
member's, spouse's, or cohabitant's name. It also ensures that those 
that have had licenses suspended or revoked in the last 10 years do not 
procure one.
    This legislation helps to bolster the actions that the Department 
of Agriculture is currently taking with their rule proposal which seeks 
to eliminate automatic license renewals. It suggests that reapplication 
would be necessary every 3 years. While I am supportive of the USDA's 
proposed rule, I think that the WOOF! Act goes a step further in 
protecting dogs from abusive handler, by making the licensing 
requirements stricter.
    I would also like to bring the Committee's attention to H.R. 2442, 
The Puppy Protection Act. This bill was introduced by me, Congressmen 
Crist, Reschenthaler, and McGovern.
    This bipartisan bill would amend the Animal Welfare Act to ban 
harmful practices such as cage-stacking and wire flooring in the pet 
areas. It requires the following: that dogs over 12 weeks old have room 
to exercise, all dogs be fed at least twice a day and have access to 
clean unfrozen water at all times, all dogs receive annual veterinary 
examinations, it also includes many other common-sense measures meant 
to ensure reasonable well-being for canines.
    While some of the provisions in the bill are in USDA's proposed 
rule the Puppy Protection Act provides additional standards of care to 
ensure that dogs in USDA licensed facilities are treated humanely.
    Both of these bills have the strong support of the Humane Society, 
ASPCA and numerous other animal advocacy groups.
    I hope that the Committee will consider these two important bills 
that will help protect our friends that need protecting the most.
    Thank you.

    The Chairman. I thank the gentleman for his statement.
    I now recognize the gentleman from New Jersey, Mr. Van 
Drew.

 STATEMENT OF HON. JEFF VAN DREW, A REPRESENTATIVE IN CONGRESS 
                        FROM NEW JERSEY

    Mr. Van Drew. Thank you, Chairman Peterson and Ranking 
Member Conaway, for this opportunity to speak about agriculture 
in my district, and southern New Jersey.
    I represent New Jersey's second Congressional district 
which encompasses over 40 percent of the state's land mass, and 
is a leader in the state for most crops that have market value 
and for agricultural products sold. Many times when we think of 
New Jersey we forget it is ``The Garden State'' and even fewer 
know that the nickname comes from a 19th century southern New 
Jersey farmer named Abraham Browning. Mr. Browning coined the 
term when describing New Jersey when \2/3\ of the state's 
landmass was beautiful rolling farmland.
    Today, New Jersey's second Congressional district, my home, 
is responsible for 48 percent of the state's total agricultural 
sales. As the state's economy has changed, New Jersey's 
agricultural industry is still the state's third largest 
industry and in south Jersey, the importance of the agriculture 
economy cannot be overstated. That is usually quite a surprise 
for people, to hear in the State of New Jersey that agriculture 
is the third largest industry.
    In order to continue to help and support our farmers and 
their families, I would like to highlight three areas that I 
believe are vital to the continued growth and success of our 
agriculture economy.
    Rural Development: Having over 40 percent of the land mass 
of any state means you will have rural parts to your district 
no matter what part of the state you come from. My district 
encompasses eight counties and 92 towns, where the eastern 
shore is beaches and aquaculture, and the western mainland is 
farmland and agriculture. These hard-working communities need 
our support for continued economic growth. For example, rural 
towns such as the Borough of Woodbine and Downe Township have 
been granted recipients of USDA Rural Development Grants for 
Water and Waste Removal. For communities such as these, where 
they are below sea-level and flooding can be a major problem, 
these systems are vital. We need to continue to support our 
farmers and rural communities and provide them with the tools 
and technology that is commonly afforded to non-rural areas so 
that they are on an equal footing.
    Broadband: I am proud to support the ReConnect Program, 
which helps support our rural communities to get access to 
broadband internet access. It is of vital importance. Although 
New Jersey is rarely thought of as a rural area, where I come 
from, many of our rural communities have been lacking in 
access. This has been an issue I have cared about over my 
career, taking on the issue as a State Senator as well now as a 
Congressman.
    The importance of this program and similar programs to do 
business, access opportunities in education, and receive 
specialized health care in rural America today cannot be 
understated. The broadband programs that Rural Development 
administers continue to have strong interest from rural 
communities who are looking to either obtain or improve access 
to broadband.
    Research: Research is vital for the continued growth of our 
agriculture industry, whether it is to grow more efficient 
crops, or it is in search of disease resistant crop strains. 
One of the country's prominent research facilities is Rutgers 
University, a land-grant institute that has been doing great 
work for our farmers. It is my alma mater. A research effort 
that has been extremely successful in New Jersey, which was to 
study the impact of Fairy Ring Disease in cranberries, which 
are of major, major importance in our state. Cranberries are 
one of New Jersey's top crops and the state ranks third in the 
entire country for sales of cranberries.
    I would like to thank Chairman Peterson and Ranking Member 
Conaway for this opportunity. These priorities in research, 
rural development and access to broadband highlight the 
importance of the work being done in the agriculture industry; 
and help to ensure south Jersey stays The Garden State for 
generations to come.
    Thank you for the time.
    [The prepared statement of Mr. Van Drew follows:]

  Prepared Statement of Hon. Jefferson Van Drew, a Representative in 
                        Congress from New Jersey
    I represent New Jersey's second Congressional district which 
encompasses over 40 percent of the state's land mass and my district is 
a leader in the state across most crops for market value of 
agricultural products sold.
    Many times when we think of New Jersey we forget it is ``The Garden 
State'' and even fewer know that nickname comes from a 19th century 
southern Jersey farmer named Abraham Browning.
    Mr. Browning coined the term when describing New Jersey when \2/3\ 
of the state's landmass was rolling farmland.
    Today, New Jersey's second Congressional district, my home, is 
responsible for forty-eight percent of the state's total agricultural 
sales.
    As the state's economy has changed, New Jersey's agricultural 
industry is still the state's third largest industry and in South 
Jersey, the importance of the agriculture economy cannot be overstated.
    In order to continue to help and support our farmers and their 
families, I would like to highlight three areas that I believe are 
vital for the continued growth and success of our agriculture economy.
Rural Development
    Having over 40% of the land mass of any state means you will have 
rural parts to your district no matter where you come from.
    My district encompasses eight counties and 92 towns, where the 
eastern shore is beaches and aquaculture, and the western mainland is 
farmland and agriculture.
    These hard working communities need our support for continued 
economic growth and support.
    For example, rural towns such as the Borough of Woodbine and Downe 
Township have been the recipients of USDA Rural Development Grants for 
Water and Waste Removal.
    For communities such as these, where they are below sea-level and 
flooding can be a major problem, these systems are vital.
    We need to continue to support our farmers and rural communities 
and provide them with the tools and technology that is commonly 
afforded to non-rural areas.
Broadband
    I am proud to support the ReConnect Program, which helps support 
our rural communities get access to broadband internet access.
    Although New Jersey is rarely thought of as rural, where I come 
many of our rural communities have been lacking in access.
    This has been an issue I have cared about over my career, taking on 
the issue as a State Senator as well.
    The importance of this program and similar programs to do business, 
access opportunities in education, and receive specialized health care 
in rural America today cannot be understated.
    The broadband programs that Rural Development administers continue 
to have strong interest from rural communities who are looking to 
either obtain or improve access to broadband.
Research
    Research is vital for the continued growth of our agriculture 
industry, whether it is to grow more efficient crops or it is in search 
of disease resistant crop strains.
    One of the countries prominent research facilities is Rutgers 
University, a land-grant institute that has been doing great work for 
our farmers.
    A research effort that has been extremely successful in New Jersey 
was to study the impact of Fairy Ring Disease in cranberries.
    Cranberries are one of New Jersey's top crops and the state ranks 
third in the country for sales.
    I would like to thank Chairman Peterson and Ranking Member Conaway 
for this opportunity.
    These priorities in research, rural development and access to 
broadband highlight the importance of the work being done in the 
agriculture industry; and help to ensure New Jersey stays The Garden 
State for generations to come.

    The Chairman. I thank the gentleman for his statement, and 
it was very good timing, Ms. Torres Small.
    I now recognize the gentlelady from New Mexico, Ms. Torres 
Small, for 5 minutes.

  STATEMENT OF HON. XOCHITL TORRES SMALL, A REPRESENTATIVE IN 
                    CONGRESS FROM NEW MEXICO

    Ms. Torres Small. Thank you, Mr. Chairman----
    The Chairman. The microphone. There you go.
    Ms. Torres Small. Thank you, Mr. Chairman, for having me 
today. I deeply appreciate the opportunity to speak about the 
importance of agriculture in New Mexico's second Congressional 
district.
    Chairman Peterson, Ranking Member Conaway, and the entire 
Committee, thank you for the opportunity to speak today on the 
important agriculture issues facing my district in southern New 
Mexico. We are famous for our green chilies and pecans, but we 
are also the proud home of thriving dairy and ranching 
industries. These crops and livestock are key to our economy 
and our culture, and it is my honor to work every day for these 
important programs. I am grateful for the work this Committee 
has done to pass and oversee the implementation of the 2018 
Farm Bill, and to continue fighting for funding for these 
important programs.
    There are three topics I would like to discuss today: 
first, the need for a modern agricultural workforce; second, 
the Livestock Indemnity Program, also known as LIP, and the 
Dairy Indemnity Program, also known as DIP; and third, tariffs.
    First, the modern agricultural workforce. I know it falls 
out of this Committee's jurisdiction, so I will keep my 
comments brief. But please know, any time I meet dairy farmers 
and agricultural producers, one of the most frequent items I 
hear is the need for a reliable, legal labor workforce.
    Second, I would like to express the vital role that LIP and 
DIP play in the lives of my constituents. For ranchers who face 
predations from protected species, LIP pays a percentage of 
animal's value as compensation for the loss. However, the 
process to receive compensation is incredibly complicated and 
onerous, and therefore ranchers are not paid for every loss. 
This unfairly increases the burden on our ranchers. In the 
coming months, I plan to introduce legislation to increase the 
percentage of compensation for predations, studying ways to 
improve the process for receiving compensation for predation. I 
am excited to work with the Committee on this important 
legislation.
    Similarly, DIP compensates dairy producers if their milk is 
contaminated by chemicals, pesticide, or radiation. This has 
proved necessary for a farmer just outside my district, whose 
milk continues to be contaminated by PFAS runoff from a nearby 
Air Force base. Though the specific concern of PFAS 
contamination in water used for agricultural purposes is new, 
PFAS contamination in groundwater is an epidemic that has and 
will continue to plague our country. I am grateful that this 
Committee had the foresight to establish DIP to account for 
situations like this, but it is clear we will need to do more.
    In this year's Fiscal Year 2020 National Defense 
Authorization Act, I fought for the inclusion of an amendment 
authorizing the military to treat or provide fresh water for 
agricultural producers who face PFAS contamination from 
military sites. That amendment came together with the support 
of your Committee, and I appreciate your willingness to work 
together on this important issue. We are all but certain to see 
PFAS continue to spread and to contaminate our agriculture, and 
I look forward to working with the Committee to ensure that our 
agricultural producers aren't left holding the bag.
    Third, I know I speak for many members of the agricultural 
sector when I say that we must urgently stabilize our trade 
agreements. I have written to Ambassador Lighthizer requesting 
lower tariffs on pecans sold to India, and I have regularly 
worked to maintain efficient ports-of-entry to ensure that 
products can easily flow between New Mexican producers and 
Mexico, my state's largest trade producer.
    Members of the Committee, thank you for the opportunity to 
come before you today, and thank you for your daily dedication 
to supporting our farmers and ranchers.
    [The prepared statement of Ms. Torres Small follows:]

 Prepared Statement of Hon. Xochitl Torres Small, a Representative in 
                        Congress from New Mexico
    Chairman Peterson, Ranking Member Conaway, and the entire 
Committee, thank you for the opportunity to speak today on the 
important agriculture issues facing my district in southern New Mexico. 
We're famous for our green and red chilies and pecans, but we're also 
the proud home of thriving dairy and ranching industries. These crops 
and livestock are key to our economy and our culture, and it's my honor 
to work every day to protect this way of life.
    There are three topics I'd like to discuss today: first, the need 
for a modern agricultural workforce; second, the Livestock Indemnity 
Program (also known as LIP) and the Dairy Indemnity Program (also known 
as DIP); and third, tariffs.
    First, the modern agricultural workforce. I know it falls out of 
this Committee's jurisdiction, so I'll keep my comments brief. But 
please know, that any time I meet with dairy farmers and agricultural 
producers one of the most frequent issues I hear is the need for a 
reliable, legal labor force.
    Second, I'd like to express the vital role that LIP and DIP play in 
the lives of my constituents. For ranchers who face predations from 
protected species, LIP pays a percentage of animal's value as 
compensation for the loss. However, the process to receive compensation 
is incredibly complicated and onerous, and therefore ranchers are not 
paid for every loss. This unfairly increases the burden on our 
ranchers. In the coming months, I plan to introduce legislation to 
increase the percentage of compensation for predations, studying ways 
to improve the process for receiving compensation for predation. I am 
excited to work with the Committee on this important legislation.
    Similarly, DIP compensates dairy producers if their milk is 
contaminated by chemicals, pesticide, or radiation. This has proved 
necessary for a farmer just outside my district, whose milk continues 
to be contaminated by PFAS runoff from Cannon Air Force Base. Though 
the specific concern of PFAS contamination in water used for 
agricultural purposes is new, PFAS contamination in groundwater is an 
epidemic that has and will continue to plague our country. I'm grateful 
that this Committee had the foresight to establish DIP to account for 
situations like this, but it's clear that we'll need to do more. In 
this year's FY 2020 National Defense Authorization Act, I fought for 
the inclusion of an amendment authorizing the military to treat or 
provide fresh water for those who face PFAS contamination from military 
sites. We're all but certain to see PFAS continue to spread and 
contaminate our agriculture, and I look forward to working with the 
Committee to ensure that our agricultural producers aren't left holding 
the bag.
    Third, I know I speak for so many members of the agricultural 
sector when I say that we must urgently stabilize our trade agreements. 
I've written to Ambassador Lighthizer requesting lower tariffs on 
pecans sold to India, and I've regularly worked to maintain efficient 
ports of entry to ensure that products can easily flow between New 
Mexican producers and Mexico, my states' largest trade partner.
    Members of the Committee, thank you for the opportunity to come 
before you today, and thank you for your daily dedication to supporting 
our farmers and ranchers.

    The Chairman. Thank you very much. I appreciate your 
statement. We will take it under advisement.
    I have been informed that Ms. Finkenauer and Mr. Westerman 
are on their way. I don't know exactly what that means. Anybody 
got an ETA on them? They are supposedly walking over. That has 
been going on for a while, so they must walk slow or something.
    Why don't we just take a brief recess for a little bit. If 
they don't show up, we will have them submit their stuff in 
writing. We will take a recess for a few minutes in case 
somebody needs to go do something.
    The Committee is in recess.
    [Recess.]
    The Chairman. The Committee will come back to order. We 
have a couple Members here, and we are getting towards the end.
    So, we are now happy to recognize the gentleman from 
Arkansas, Mr. Westerman, for 5 minutes.

STATEMENT OF HON. BRUCE WESTERMAN, A REPRESENTATIVE IN CONGRESS 
                         FROM ARKANSAS

    Mr. Westerman. Thank you, Chairman Peterson and Ranking 
Member Conaway. I appreciate you giving us the opportunity to 
come to your Committee and talk to you about issues that are 
important to many of us who aren't privileged to serve on your 
Committee. Today, I want to talk to you about something that is 
very near and dear to me, and that is trees. I know this 
Committee deals a lot with trees and forestry.
    I will say that we are at a pivotal time in Congress, a 
pivotal time in our country, as we face issues on air quality, 
water quality, wildlife habitat, public recreation, energy, and 
carbon. We are at a pivotal time, but I'll also say we are at a 
point where we have a possibility for a very, very bright 
future ahead. And thanks to a lot of the work that has been 
done in this Committee, we are making some progress. If you 
look at especially the last farm bill that was passed and some 
previous legislation where we have been able to get things like 
a fire funding fix, where we have been able to--and not only 
this Committee helped establish the Good Neighbor Authority 
where Federal land managers can be assisted by state and local 
groups in managing their forests, but we have actually been 
able to improve the Good Neighbor Authority through work that 
was done on this Committee. We have several categorical 
exclusions out there that accelerate management activities on 
Federal lands, and we have things like the 20 year stewardship 
contracting that was in the last farm bill that we are already 
seeing good results from that as many manufacturers are bidding 
on projects in areas like Fort Frye, where you have a lot of 
small diameter timber that needs to be harvested to make those 
forests more resilient.
    We have a lot of good things happening, but there is 
opportunity to do a lot more in the future.
    I will say that I was out in California this past August 
and I saw them harvesting trees off of Federal lands in 
California, and they were doing it to make those forests more 
fire resilient to protect sensitive watersheds, and really to 
provide a better environment. I will stress again that we are 
making progress, but we have a lot of work still to do.
    One area that we need to focus on in Congress is the 
wildland-urban interface. These are areas where it is just what 
it sounds like, the wildlands interface with urban areas. We 
see more and more homes being built in these areas, and we see 
what happens when we get catastrophic wildfire in these areas, 
a tremendous loss of lives, loss of homes and property. And 
making some of these communities almost uninsurable because of 
the risks that are associated with catastrophic wildfire. And 
it is not something that is just limited to the western part of 
our country. We saw the huge fire in Tennessee a few years ago, 
and it can happen anywhere where you have wildlands and urban 
areas interfacing.
    I hope that we can work together to do more to make those 
wildland-urban interfaces more resilient, and you know, to wrap 
up about something that is desperately needed to make our 
forests more healthy, and that is more markets for the products 
that come out of the forests. And I am excited that some 
legislation that I am working on that focuses on three areas: 
number one is to plant more trees. We have a lot of places in 
this country, marginal ag land, urban areas, wetlands where we 
can plant more trees. We need to be able to grow more wood on 
the forests that we have to make them more resilient and 
healthy so that we are not losing all that carbon back into the 
atmosphere during forest fires. And finally, we want to be able 
to store more carbon by using those wood products.
    This Monday before I came back up here, I was at an 
announcement in my state where a new factory was being built to 
make mass timbers to go into the new corporate headquarters for 
Wal-Mart. They will build a 3\1/2\\2\ million corporate 
headquarters to house 15,000 people, and they are going to 
build that out of wood, wood that is grown domestically. And 
the neat thing about wood, like the wood on this dais and these 
tables in here, that is about 50 percent carbon that was taken 
out of the atmosphere many years ago, and it is still being 
stored in this wood today.
    We have a bright future ahead, and I look forward to 
working with the Committee on developing even better 
legislation as we move forward.
    I thank you for your time.
    [The prepared statement of Mr. Westerman follows:]

    Prepared Statement of Hon. Bruce Westerman, a Representative in 
                         Congress from Arkansas
    Thank you, Chairman Peterson and Ranking Member Conaway, for 
hosting this time to allow Members like myself who don't serve on this 
Committee to testify.
    I'm a forester, and I'm committed to using Federal resources to 
steward our nation's forests in the best possible way. I believe we're 
loving our trees to death--surrounding them with endless regulations 
and bureaucratic loopholes that increase wildfire risk and prevent 
forest managers from doing their job.
    Last year's farm bill included some forest management reforms that 
I'd introduced, and I sponsored the Resilient Federal Forests Reform 
Act of 2019 to promote even more long-term changes.
    Years of mismanagement have led to insect infestation, overstocked 
stands and dead and decaying trees. Congress must allow the Forest 
Service to use proven, scientific methods when managing our forests.
    Some consider 2019 to be a relative light year for wildfires, but 
that's because ``only'' 4.6 million acres burned compared to 8.5 
million acres burned in 2018. As urban areas move closer and closer to 
forested land, we can't let statistics like this become our new normal.
    Arkansas has seen drought conditions and more environmental stress, 
but at the same time, we haven't seen an increase in the number or 
intensity of forest fires.
    If changing climate was the only thing that increased wildfires, 
surely we would see an increase in the number and intensity in my 
state. However, because we actively manage our public and private 
forests, the state has a thriving and expanding forest economy.
    These successes have led me to work with Minority Leader McCarthy 
on another piece of forestry legislation. This bill, which is still in 
a draft stage, has the end goal of planting one trillion trees.
    Of course, if we're planting new trees, we need to be harvesting 
mature trees, so the legislation will also incentivize usage of more 
forest products.
    At the height of maturity, a tree captures and stores several 
pounds of carbon each year. As it begins to decay, the tree will 
release that carbon back into the atmosphere. If it's harvested at 
maturity, however, the tree stores that carbon for the rest of its 
life--even when it's made into this very dais.
    It's a simple formula: if we want more trees, we should all be 
using more products made from trees.
    I'm looking forward to continuing to work with this Committee once 
I introduce the legislation, and I welcome your questions.

    The Chairman. I thank the gentleman for his statement. We 
appreciate that.
    We recognize now the gentlelady from Iowa, Ms. Finkenauer, 
for 5 minutes.

STATEMENT OF HON. ABBY FINKENAUER, A REPRESENTATIVE IN CONGRESS 
                           FROM IOWA

    Ms. Finkenauer. Thank you, Chairman Peterson and Ranking 
Member Conaway. It means a lot to me to get this opportunity to 
speak here today to the Agriculture Committee. I obviously do 
not get the distinct privilege to sit on this Committee, but I 
do sit on Small Business where I chair Rural Development, 
Agriculture, Trade, and Entrepreneurship. And I come to you 
today because I truly believe that my role as a Congresswoman 
is to make sure that my constituents are heard here in D.C. It 
has been my biggest priority, and right now, my constituents 
desperately need to be heard wherever they can be, especially 
when it comes to agriculture.
    I am, quite frankly, scared about the future of my state 
and my district. You see, I represent Iowa's first 
Congressional district. It is 20 counties in the State of Iowa. 
We have three bigger city centers, and the rest is rural. My 
brother-in-law and my sister are corn and soybean farmers. My 
neighbors that I grew up with in Sherrill, Iowa, are also corn 
and soybean farmers. And I have seen them hurting in more ways 
than one over the last 20 months because of the reckless 
ongoing trade war we have seen from this Administration when it 
comes to China, and also the attacks on renewable fuels. It has 
been blow after blow, and I have brought Iowans to D.C. to have 
their voices heard on these issues. We have had them at our 
Subcommittee. We have had actually two farmers and also 
somebody from Labor at our first Subcommittee that we had on 
Rural Development, Ag, Trade, and Entrepreneurship. One of the 
women who actually--she is a sixth-generation farmer. She sat 
there and she told my Committee that day that she has three 
sons, and she is telling them all right now not to go into 
farming because she is worried about their future. I sat there 
and I thought of my nephews who are now--well, about 3 and 6 
months old, and thought about their future. And I knew at that 
moment that my brother-in-law was sitting there with a bin full 
of soybeans that were worth about $60,000 less than they were 5 
years ago when they took over the farm after his parents 
passed.
    These stories aren't unique. I have had people come into my 
office telling me that they are dipping into 401(k)'s, that 
they are filing for bankruptcy. And by the way, now Iowa 
actually holds more agriculture debt than the State of 
California. It is not right. They have been ignored way too 
long, and I thank the folks on this Committee who have uplifted 
these issues to the Administration. But we must do more.
    I am happy we have the USMCA now a deal reached. That 
should add some certainty that the President won't be reckless 
pulling us out of NAFTA, costing us even more markets. But it 
is not enough. We don't have time today for a victory lap on 
USMCA. We must have the President at the negotiating table 
getting a deal with China, adding those markets for our soybean 
farmers, and we must, we must have more answers on the attacks 
that this President has done to renewable fuels. It is not 
okay. It is wrong. And we need answers.
    And so, I am grateful again for what you all have done, the 
issues that you have brought up on this Committee. You have a 
friend in me to continue to uplift these issues, but we cannot 
take our foot off the pedal. The future of my state is quite 
literally on the line, and every day that this trade war 
continues, Brazil is deforesting as fast as they can, planting 
more soybean fields, taking those markets away from my 
district, markets that took decades to build.
    We must, again, do more. I am grateful for what you all do 
here, and again, we cannot take our foot of the pedal.
    Thank you.
    The Chairman. I thank the gentlelady for her statement. We 
appreciate that, and we now are going to recognize the last 
Member that I have on the list for me, who is also the Chairman 
of the Rules Committee, the distinguished gentleman from 
Massachusetts, Mr. McGovern, for 5 minutes.

   STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE IN 
                  CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Thank you very much, Chairman Peterson, 
Ranking Member Conaway, and Members of this Committee. I am 
proud to be able to be a Member of this Committee, and I want 
to thank you for holding today's hearing and for extending an 
opportunity for all Members to be able to testify.
    Today, I am here to speak about an issue that you all know 
is one of my strongest passions, and that is ending hunger. As 
much as I wish I was here to speak on the positive strides we 
have made as a country in this area, lately it seems that 
things are moving in the wrong direction. In the past 12 months 
alone, this Administration has proposed not one, not two, but 
three separate rules that will further disadvantage this 
country's under-resourced and underprivileged.
    I want to take a moment to highlight the final rule 
announced by the Trump Administration last week that would 
restrict a states' ability to waive the 3 month SNAP 
participation time limit for able-bodied adults without 
dependents, known as ABAWDs. Under current regulations, an 
individual can only participate in SNAP for 3 months in a 36 
month period, unless they work an average of least 20 hours per 
week. States, however, have long been given limited flexibility 
to waive this time limit in areas where there were not 
sufficient jobs.
    Last week, however, the Trump Administration finalized this 
rule to further restrict state flexibility, with the effect of 
literally hundreds of thousands of Americans being kicked off 
of SNAP and thrown further into the depths of food insecurity. 
According to USDA, the finalization of this change will help 
able-bodied adults without dependents ``restore self-
sufficiency through the dignity of work.'' What is particularly 
galling about this statement is that it further generalizes and 
stigmatizes ABAWDs as people who simply don't work, and 
further, it implies that USDA has enough data about ABAWDs to 
even make that kind of a generalization, when in reality, they 
do not.
    On February 27, 2019, Secretary Sonny Perdue appeared 
before this Committee. During the hearing, I asked him if there 
was any specific research that FNS used to justify the rule 
change. Sadly, instead of conducting the research needed to 
understand this population, this Administration has resorted to 
name calling and relying on false stereotypes. Now, if they had 
done the research, they would know that ABAWDs are an extremely 
complex group of people. They include veterans, young adults 
who have aged out of the foster care system, ex-felons who were 
products of mass incarceration, and workers who either aren't 
given 20 hours of work per week or fall just below the 
threshold.
    USDA only has access to limited information on SNAP 
participants, and that is part of the problem. Age, ethnicity, 
and citizenship status doesn't tell the whole story. The 
Administration continues to ignore or misstate that the 
overwhelming majority of SNAP participants who can work 
actually do work, but often in jobs that are either unstable or 
pay so little that they still qualify for SNAP.
    In addition to stigmatizing struggling individuals and 
families, this rule goes against the intent of Congress by 
imposing restrictions that were specifically rejected for 
inclusion in the farm bill signed into law just last year. 
Instead of allowing us to do the jobs we've been sent here to 
do, the President has sidestepped our authority, yet again, to 
push his own political agenda.
    So, I am going to conclude my testimony with this. 
President Trump and his Administration have said that the 
proposed rule is about ``work-work-work.'' Well, I have never 
heard of anyone testify that hunger makes it easier to find a 
job or get back on their feet. No. We know what this is really 
a partisan attempt to stigmatize low-income folks who are 
trying to pull themselves out of poverty.
    That is why I urge you and the Members of this Committee to 
raise this issue to the forefront of our agenda, and to oppose 
any attempts by this Administration to take food off the table 
of the most vulnerable individuals and families. Food for the 
hungry shouldn't have a time limit.
    I would just say one other thing. In the House Rules 
package that we approved at the beginning of this session, we 
have a provision in there that authorizes our legal counsel in 
the House to go to court, if necessary, to fight these changes 
in SNAP, because Congress did not vote for these, and the farm 
bill was very clear on what we support and what we don't 
support.
    Mr. Chairman, Ranking Member Conaway, and others, I thank 
you again for the opportunity to address the Committee on this 
matter. I just think we need to make it clear that when it 
comes to people who are struggling in poverty who are hungry or 
food-insecure, that we are on their side and that we are not 
going to buy into a false narrative. We have to stand up for 
these people.
    I thank you very much, and appreciate your willingness to 
give me an opportunity to testify.
    [The prepared statement of Mr. McGovern follows:]

   Prepared Statement of Hon. James P. McGovern, a Representative in 
                      Congress from Massachusetts
    Chairman Peterson, Ranking Member Conaway, and my fellow Members of 
the House Committee on Agriculture, I thank you for holding today's 
hearing and for extending the opportunity to testify. Today, I'm here 
to speak on an issue that you all know is one of my strongest 
passions--the Supplemental Nutrition Assistance Program (SNAP).
    As much as I wish I was here to speak on the positive strides we've 
made as a country in this area, lately it seems that things are 
regressing rather than progressing. In the past 12 months alone, the 
President and his Administration have proposed three rules that will 
further disadvantage this country's under-resourced and 
underprivileged.
    The first of these rules was proposed on December 20, 2018, and 
would restrict a states' ability to waive the 3 month SNAP 
participation time limit for Able-Bodied Adults without Depend[e]nts 
(known as ABAWDS).
    Under current regulations, an individual can only participate in 
SNAP for 3 months in a 36 month period, unless they average working at 
least 20 hours per week. States, however, were given limited 
flexibility to waive this time limit in areas where there were not 
sufficient jobs. Last week, however, on December 4th, the Trump 
Administration finalized this rule to further restrict state 
flexibility--with the effect of over 750,000 Americans being kicked off 
of SNAP and thrown further into the depths of food insecurity.
    According to USDA, the finalization of this change will help ABAWDs 
``restore self-sufficiency through the dignity of work.''
    What's particularly upsetting about their statement is that it 
further generalizes and stigmatizes ABAWDs as people who simply don't 
work, and further, it implies that USDA has enough data about ABAWDs to 
even make that kind of a generalization, when in reality, they don't.
    On February 27, 2019, Secretary Sonny Perdue appeared before the 
Agriculture Committee. During the hearing, I asked him if there was any 
specific research that FNS used to justify the rule change--but what I 
received in response was a lot of information condemning this 
population, rather than information aimed at understanding the 
situation.
    What I don't think the Trump Administration understands about 
ABAWDs is that they are an extremely complex group. According to 
witnesses from the Nutrition Subcommittee's ABAWDs hearing in April, 
this group includes veterans, young adults who have aged out of the 
foster care system, ex-felons who were products of mass incarceration, 
and workers who either aren't given 20 hours of work per week or fall 
just below the threshold. USDA only has access to limited information 
on SNAP participants--and that's part of the problem. Age, ethnicity, 
and citizenship status doesn't tell the whole story.
    What I think they're failing to recognize is that the overwhelming 
majority of SNAP participants who can work do work, but often in jobs 
that are either unstable or that pay so little that they still qualify 
for SNAP. So, it's not that ABAWDs are jobless by choice--many are 
jobless because they lack opportunity and they are trying to get on 
their feet.
    In addition to stigmatizing struggling families, the finalization 
of this rule goes against the will of Congress by imposing restrictions 
that were specifically rejected for inclusion in the farm bill signed 
into law just last year. Instead of listening to us, and allowing us to 
do the jobs we've been sent here to do, the President has sidestepped 
our authority--yet again--to push his own political agenda
    President Trump and his Administration have said that the proposed 
rule is about ``work-work-work'' but we all know what this really is: 
it's a call to rally up extremism and stigmatize low-income households. 
This is a rule that is trying to ``solve'' problems that don't exist--
and it's putting our most vulnerable citizens at a further 
disadvantage. We can't stand by and let things like this happen.
    That is why I urge you and the Members of this Committee to raise 
these issues to the forefront of our agenda, and to oppose any attempts 
this Administration makes to overburden struggling people and families.
    Food for the hungry shouldn't have a time limit.
    Mr. Chairman and Ranking Member Conaway, thank you again, and for 
the opportunity to address the Committee on this matter. I yield the 
rest of my time.

    The Chairman. I thank the gentleman, and the gentleman, as 
he noted, is one of our senior Members on the Committee. We 
appreciate his advice here today.
    With that, before we adjourn, I am going to invite the 
Ranking Member to make any closing remarks that he might have.
    Mr. Conaway. I just appreciate all of the Members who 
aren't on the Committee, as well as those on the Committee, but 
those who aren't on the Committee for helping us share the 
issues that face rural America, and the production of food and 
rural development. They are ambassadors to get the messages out 
about just how hard things are in rural America. I appreciate 
that. I appreciate the Members on the Committee sharing with us 
their information as well.
    So with that, I yield back.
    The Chairman. I thank the gentleman, and I also want to 
thank all of the Members that took time to come before the 
Committee today and share their concerns and insights and 
suggestions. It is very much appreciated, and we will take that 
to heart here under advisement on the Committee, and take it 
into consideration as we move forward.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional testimony or materials relating to today's 
proceedings.
    This hearing of the Committee on Agriculture is therefore 
adjourned.
    [Whereupon, at 11:23 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Statement of Hon. Guy Reschenthaler, a Representative in 
                       Congress from Pennsylvania
December 6, 2019

 
 
 
Hon. Collin C. Peterson,             Hon. K. Michael Conaway,
Chairman,                            Ranking Minority Member,
House Committee on Agriculture,      House Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman Peterson, Ranking Member Conaway, and House 
Agriculture Committee Members:

    I am writing regarding my support for H.R. 2442, the Puppy 
Protection Act, which I introduced with Reps. Brian Fitzpatrick (PA-I), 
Charlie Crist (FL-13), and Jim McGovern (MA-2). I join my colleagues in 
respectfully requesting the House Committee on Agriculture consider 
this crucial legislation in a future hearing and subsequent mark-up.
    I have long championed legislation that protects our nation's 
animals from abuse and neglect. Prior to coming to Congress, I was a 
leader on a number of animal welfare initiatives in the Pennsylvania 
State Senate. I helped pass Libre's Law, which increased penalties for 
animal abuse. I also authored a puppy mill ban, which would protect 
consumers and animals by ending the sale of commercially bred puppies 
at pet stores, since the vast majority of dogs sold at these stores 
come from inhumane puppy mills. This legislation is currently pending 
in the Pennsylvania General Assembly and other states have made efforts 
to pass similar legislation.
    Earlier this year, I was proud to join my colleagues to introduce 
the Puppy Protection Act. This bipartisan legislation aims to improve 
standards for federally licensed commercial dog breeders. H.R. 2442 
will not impact family pets, livestock, or family breeders, but rather 
updates standards for veterinary care, housing, breeding practices, and 
the humane placement of retired breeding dogs. Too many of our dogs 
currently suffer from inhumane conditions in commercial breeding 
facilities, but I look forward to working with you and my colleagues 
Representatives Fitzpatrick, Crist, and McGovern to provide protections 
for these animals in the future.
    Thank you for holding this Member day to discuss priorities 
currently pending in the House Committee on Agriculture and for 
considering my request.
            Very respectfully,
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Hon. Guy Reschenthaler,
Member of Congress.

                                  <all>
</pre></body></html>
